                  MANAGEMENT ADVISORY
                              REPORT



Delivery Vehicle Fleet
Replacement
  June 10, 2014




                      Report Number DR-MA-14-005
                                                                     HIGHLIGHTS

                                                                           June 10, 2014

                                                 Delivery Vehicle Fleet Replacement
                                                       Report Number DR-MA-14-005
BACKGROUND
The U.S. Postal Service uses more than       routes showed the Postal Service could
190,000 vehicles to collect and deliver      sustain delivery operations nationwide
mail, including about 142,000 long-life      until FY 2017. On the other hand, it
vehicles that are nearing or exceeding       could experience vehicle shortfalls if
their expected service life. As the fleet    there are unexpected decreases in
ages, maintenance costs will increase        vehicle inventory or increases in
and older models will be retired as they     motorized routes. In addition, aging
become too costly to maintain or repair.     vehicles are typically repaired when they
                                             break down, even though it would
Our objectives were to assess the            sometimes be more cost effective to
Postal Service's acquisition strategy for    replace them.
the next generation of collection and
delivery vehicles and identify features      In designing new delivery vehicles,
recommended for these vehicles.              management must consider federal fleet
                                             regulations, emerging vehicle
WHAT THE OIG FOUND:                          technologies, and fleet best practices.
The Postal Service has an acquisition        For example, growth in the package
strategy, but has not fully developed or     market could help dictate the design and
implemented it. The short-term plan          technologies selected for a new vehicle.
developed in 2011 included acquiring         Moreover, replacing vehicles could take
25,000 vehicles costing about $500           more than 10 years. Thus, the Postal
million to meet operational needs and        Service should act quickly to implement
replace some of the aging fleet. The         a plan to meet operational needs,
long-term plan included purchasing the       achieve sustainability goals, and reduce
next generation of delivery vehicles         maintenance costs.
beginning in fiscal year (FY) 2017.
However, this plan lacked details, such      WHAT THE OIG RECOMMENDED:
as vehicle requirements, specifications,     We recommended the vice president,
and green technology features. Despite       Delivery and Post Office Operations,
3 years of effort, neither plan has been     continue to pursue short-term annual
approved or fully funded. In January         vehicle acquisitions and formalize a
2014, the Postal Service received            long-term plan to replace the fleet that
approval to purchase 3,509 vehicles to       includes requirements and
meet a contractual rural carrier vehicle     specifications for the next generation of
commitment as a stop gap measure.            delivery vehicles.

These conditions occurred due to             Link to view entire report.
financial constraints. Our analysis of the
delivery vehicle inventory and motorized
June 10, 2014

MEMORANDUM FOR:             EDWARD F. PHELAN, JR.
                            VICE PRESIDENT, DELIVERY AND POST OFFICE
                            OPERATIONS




FROM:                       Robert J. Batta
                            Deputy Assistant Inspector General
                             for Mission Operations

SUBJECT:                    Management Advisory Report – Delivery Vehicle Fleet
                            Replacement (Report Number DR-MA-14-005)

This report presents the results of our review of the U.S. Postal Service’s Delivery
Vehicle Fleet Replacement (Project Number 13XG031DR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, director, Delivery
and Post Office Operations, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Delivery Vehicle Fleet Replacement                                                                                DR-MA-14-005



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Delivery Vehicle Fleet Replacement................................................................................ 2

   Vehicle Acquisition Strategy ........................................................................................ 3

   Vehicle Inventory and Motorized Routes ..................................................................... 4

   Vehicle Maintenance Costs ......................................................................................... 6

Next Generation of Collection and Delivery Vehicles ...................................................... 7

   Statutory and Regulatory Requirements ...................................................................... 7

   Vehicle Safety.............................................................................................................. 8

   Vehicle Design Options ............................................................................................... 8

   Powertrains and Green Technologies ....................................................................... 10

   Innovative Tracking ................................................................................................... 11

   Best Practices for Fleet Management ........................................................................ 11

Recommendations ........................................................................................................ 13

Management’s Comments ............................................................................................ 13

Evaluation of Management’s Comments ....................................................................... 13

Appendix A: Additional Information ............................................................................... 15

   Background ............................................................................................................... 15

   Objectives, Scope, and Methodology ........................................................................ 15

   Prior Audit Coverage ................................................................................................. 17

Appendix B: Alternative Fuel Vehicle Laws and Regulations ........................................ 19

Appendix C: Standard Fleet Safety Features ................................................................ 21
Delivery Vehicle Fleet Replacement                                                               DR-MA-14-005



Appendix D: Examples of Competitors and Foreign Post Vehicles ............................... 23

Appendix E: Alternative Fuel Technologies ................................................................... 26

Appendix F: Management's Comments ........................................................................ 28
Delivery Vehicle Fleet Replacement                                                                     DR-MA-14-005




Introduction

This report presents the results of our review of the U.S. Postal Service’s Delivery
Vehicle Fleet Replacement (Project Number 13XG031DR000). This is the first in a
series of reviews on replacing the Postal Service's collection and delivery vehicle fleet.1
Our objectives were to assess the Postal Service's acquisition strategy for the next
generation of collection and delivery vehicles and identify features recommended for
these vehicles. See Appendix A for additional information about this review.

The Postal Service operates one of the largest vehicle fleets in the U.S. As of May
2013, the Postal Service owned almost 212,000 vehicles, using over 190,000 of them to
collect and deliver mail.2 Long-life vehicles (LLV),3 which comprise 75 percent of the
Postal Service's delivery fleet, have an expected service life of 24 years. The current
fleet consists of LLVs that are now between 20 and 27 years old.4 As the Postal
Service's fleet ages, projected maintenance costs will continue to increase.5 The Postal
Service will increasingly retire older models by necessity due to the high cost of
repairing them or the unavailability of replacement parts.

The Government Accountability Office (GAO)6 and the U.S. Postal Service Office of
Inspector General (OIG)7 issued prior reports recommending the Postal Service develop
a strategy to address its delivery fleet needs. Management agreed with the GAO’s
recommendations, developed a vehicle replacement plan, and presented it to the
Capital Investment Committee on June 23, 2011; however, senior management did not
approve the plan because the Postal Service lacked the funds to implement it.
Additionally, management agreed to incorporate annual replacement for portions of the
fleet rather than a massive purchase prior to the next significant vehicle acquisition. It
included this concept in its short-term vehicle replacement plans submitted for funding
in FYs 2012, 2013, and 2014. The Postal Service’s ongoing financial constraints have
limited its ability to implement delivery fleet replacement plans.




1
  We also plan to conduct separate reviews on Foreign Post best practices for fleet management and Global
Positioning System (GPS) opportunities and the use of geofencing at the Postal Service.
2
  This delivery fleet consist of about 20,000 minivans, 7,000 cargo vans, 21,000 flex fuel vehicles, and 142,000 LLVs.
Information source: Electronic Data Warehouse (EDW) Vehicle Asset Attribute Report, as of May 31, 2013.
3
  The LLV is a custom-built, right-hand drive (RHD), light-duty delivery truck built with an aluminum body and other
features intended to permit an extended operational life.
4
  The percentage of vehicles 20 to 26 years old are evenly spread at 13 to 14 percent each year, and 5.4 percent are
27 years old.
5
  The Postal Service incurred more than $906 million in vehicle maintenance costs in fiscal year (FY) 2012.
6
  U.S. Postal Service: Strategy Needed to Address Aging Delivery Fleet, GAO-11-386, May 5, 2011.
7
  Delivery Fleet Strategies, CI-AR-12-006, August 14, 2012.
                                                           1
Delivery Vehicle Fleet Replacement                                                                   DR-MA-14-005




Conclusion

The Postal Service has an acquisition strategy that has not been fully developed or
implemented. The short-term plan developed in 2011 included acquiring 25,000
vehicles costing about $500 million to meet operational needs and replace some of the
aging fleet. The long-term plan included purchasing the next generation of delivery
vehicles beginning in FY 2017; however, this plan lacked details such as vehicle
requirements, specifications, and green technology features. Despite 3 years of effort,
the Postal Service has not approved or fully funded either plan. In January 2014, the
Postal Service received approval to purchase 3,509 vehicles to meet a contractual rural
carrier vehicle commitment as a stop gap measure.

The Postal Service has not fully developed or funded these plans due to financial
constraints. Our analysis of the delivery vehicle inventory and motorized routes showed
the Postal Service could sustain delivery operations nationwide until FY 2017. On the
other hand, it could experience vehicle shortfalls if there are unexpected decreases in
vehicle inventory or increases in motorized routes. In addition, aging vehicles are
typically repaired when they break down even though it would sometimes be more cost
effective to replace them.

In designing the new delivery vehicles, management must consider federal fleet
regulations, emerging vehicle technologies, and fleet best practices. For example,
growth in the package market could help dictate the design and technologies selected
for a new vehicle. Moreover, replacing vehicles could take more than 10 years. Thus,
the Postal Service should quickly implement a plan to meet operational needs, achieve
sustainability goals, and reduce maintenance costs.

Delivery Vehicle Fleet Replacement

The Postal Service developed a short-term plan to maintain operations until it can
implement its long-term plan, beginning in FY 2017, to replace its aging fleet with the
next generation of collection and delivery vehicles. But it lacks the financial resources to
fully develop or fund these plans. Our analysis indicates the Postal Service will still have
enough vehicles to sustain delivery operations in the short term; however, it could
experience delivery vehicle shortfalls if there is an unexpected decrease in vehicle
inventory or increase in motorized vehicle routes. Additionally, continuing to repair the
aging fleet8 is not cost effective for vehicles that have high maintenance costs.




8
 Without the capital resources to purchase a new vehicle fleet, management’s approach is to sustain delivery fleet
operations through continued maintenance. Vehicles are repaired as they experience failure as a short-term means
of ensuring that the delivery vehicles remain operational.
                                                           2
Delivery Vehicle Fleet Replacement                                                                     DR-MA-14-005



Vehicle Acquisition Strategy

In May 2011, the Postal Service agreed with a GAO report9 recommending
management develop a delivery fleet strategy that considers the effects of likely
operational changes, legislative fleet requirements, and other factors. In June 2011,
Delivery Operations officials developed a short-term plan to spend about $500 million to
acquire about 25,000 left-hand drive (LHD) minivans to meet operational needs through
2017. The intent was to replace high maintenance cost LLVs and minivans that had
reached their end of life. The Postal Service would purchase vehicles over a 5-year
period (2012 through 2016). The plan would also allow the transfer of some existing
RHD LLVs to rural carriers driving privately owned vehicles.10 Further, the Postal
Service developed a long-term plan to purchase the next generation of collection and
delivery vehicles beginning in FY 2017. This plan described management's intention to
buy about 20,000 RHD vehicles a year to replace the aging LLVs. On June 23, 2011,
officials briefed the Capital Investment Committee on these plans, but they were not
approved due to lack of funds.

Additionally, in June 2012, the OIG’s report11 recommended the Postal Service develop
and implement a comprehensive fleet management strategy managed from
headquarters by a dedicated team of specialists. The strategy was to focus on using
identified best management practices for the vehicle fleet. Management disagreed with
this recommendation, saying it had a comprehensive strategy, had undergone a
reorganization that spread the strategy among the different teams, and did not want to
make additional changes. However, management agreed to incorporate annual
replacement of portions of the fleet rather than make a massive purchase prior to the
next significant vehicle acquisition. Management included this concept in the short-term
vehicle replacement plans that were modified and resubmitted for funding in FYs 2012
and 2013. Again, senior management did not approve these plans due to a lack of
funding.

Delivery Operations' officials have continued to pursue funding through the budget
process. In August 2013, they initiated an interim plan to spend $276 million to acquire
new vehicles to meet the contractual rural carrier vehicle commitment and replace older
LLVs, 2-ton vehicles, and service vehicles. Because of financial constraints, only a
portion of the plan12 was funded. The Investment Review Committee (IRC) approved a
limited budget request to purchase 3,509 minivans13 to meet the contractual rural carrier
vehicle commitment as a stop gap measure. The IRC approved the DAR for this
purchase in January 2014 and the postmaster general approved the purchase on

9
  U.S. Postal Service: Strategy Needed to Address Aging Delivery Fleet, GAO-11-386, May 5, 2011.
10
   Handbook EL-902, Agreement Between the United States Postal Service and the National Rural Letter Carriers’
Association 2010-2015, dated July 3, 2012.
11
   Delivery Fleet Strategies, CI-AR-12-006, August 14, 2012.
12
   The Decision Analysis Report (DAR) for vehicle acquisition will be implemented in three phases. Phase I was
approved for a capital investment purchase of $88.4 million for the minivans.
13
   According to Postal Service officials, no significant cost savings are expected from the purchase of 3,509 minivans
to satisfy the rural vehicle contractual obligation. While the purchase would eliminate the equipment maintenance
allowance paid to rural carriers driving their privately owned vehicles, this amount would be offset by increased
maintenance costs for the additional vehicles added to the Postal Service fleet.
                                                              3
Delivery Vehicle Fleet Replacement                                                                      DR-MA-14-005



March 11, 2014. Additional requests are being considered in FY 2014 for more than 400
mixed collection and delivery vehicles (2-ton vehicles) needed to comply with California
Air Resource Board (CARB) truck emissions regulations and to meet the increased
need due to package delivery growth in the New York and Triboro districts.

The Postal Service developed a long-term plan to purchase the next generation of
collection and delivery vehicles beginning in FY 2017; however, the plan has not been
formalized. According to Postal Service officials, this acquisition will be a lengthy
process, with several phases that require multiple levels of review and led by a team of
experts from several departments.14 The Postal Service must develop a DAR that the
IRC, postmaster general, and Board of Governors must approve.15 Officials estimate the
entire process from vehicle design to complete replacement of LLVs could take more
than 10 years and cost more than $5 billion.16 They stated that, from 2003 through
2005, they developed a detailed acquisition strategy that was never funded. They do not
think it is worthwhile to repeat the process now, particularly in view of the uncertainty of
funding due to the Postal Service's continued financial losses.

The Postal Service continues to explore ways to acquire new collection and delivery
vehicles. It reached its statutory borrowing limit with the U.S. Department of Treasury in
2012 and cannot borrow additional funds to purchase or lease new vehicles. In
September 2013, the Postal Service requested an exigent rate increase17 to raise rates
by 4.3 percent. On December 23, 2013, the Postal Regulatory Commission approved
the rate increase for 2 years, resulting in $2.8 billion in additional revenue. Management
stated in the rate case that low levels of liquidity have impaired the Postal Service’s
ability to maintain and improve business assets, such as delivery vehicles, that are
critical to meeting the universal service obligation. The additional revenue could help the
Postal Service begin upgrading its delivery vehicle fleet.

Vehicle Inventory and Motorized Routes

Delivery vehicles are critical for the Postal Service to meet its universal service
obligation. Our analysis of vehicle inventory and motorized delivery routes showed
delivery operations could be sustained nationwide until FY 2017, the target date for
purchasing the next generation of collection and delivery vehicles. Specifically, our
analysis indicates that by the end of FY 2014, the Postal Service will have 251
additional vehicles above the 4 to 5 percent reserve limit (see Figure 1). Also, the recent
purchase of 3,509 vehicles should help the Postal Service sustain delivery operations


14
   The team of experts includes representatives from Delivery and Post Office Operations, Engineering, General
Counsel, Safety, Supply Management, and Sustainability.
15
   Handbook F-66b, Investment Policies and Procedures – Major Equipment, dated January 2006.
16
   Additionally, as part of the overall vehicle replacement strategy, the Postal Service would need to secure funding to
replace heavy-duty trucks, trailers, and service vehicles that have also exceeded their vehicle life expectancy and
mileage.
17
   The Postal Accountability and Enhancement Act, enacted on December 20, 2006, recognized that the Postal
Service might need to raise market-dominant prices above the Consumer Price Index price cap due to extraordinary
or exceptional circumstances. In such circumstances, the Postal Service may file a proposal with the commission for
an “exigent” rate increase.
                                                             4
Delivery Vehicle Fleet Replacement                                                                    DR-MA-14-005



and meet contractual obligations. But unexpected decreases in vehicle inventory or
increases in motorized routes could cause vehicle shortfalls.

              Figure 1. Analysis of Historical and Projected Delivery Vehicle
                         Inventory and Motorized Delivery Routes




Source: OIG analysis, EDW, and Address Management System (AMS).

Our analysis of vehicle inventory and motorized delivery routes18 considered the
following.

    The January 2014 approval of the purchase of 3,509 minivans to satisfy the
     commitment in the National Rural Letter Carriers’ Association contract to provide
     additional LLVs to rural carriers.19 The Postal Service will redeploy LLVs to rural
     routes by December 31, 2014 (FY 2015).

    The Postal Service retires about 1,300 vehicles each year due to excessive repair
     costs or unavailability of parts for older minivans.

    The Postal Service needs a vehicle reserve of 4 to 5 percent to replace vehicles
     being serviced and other non-route related assignments, such as driver training.
18
   This refers to motorized routes assigned a vehicle provided by the Postal Service and also includes the number of
reserve vehicles set aside for vehicle maintenance facility (VMF) maintenance and training.
19
   Memorandum of Understanding 13 of the National Agreement between the National Rural Letter Carriers'
Association and the Postal Service requires 15,000 RHD postal-owned vehicles to be deployed to rural routes
between 2009 and 2013. At the end of FY 2013, the remaining RHD vehicles required to fulfill the agreement was
3,374.
                                                            5
Delivery Vehicle Fleet Replacement                                                                  DR-MA-14-005




           The Postal Service’s ability to continue reducing motorized city delivery routes by
            about 1,100 routes a year due to reductions in First-Class Mail® volume and route
            optimization.20 Management indicated that maintaining these motorized route
            reductions into the future may prove challenging due to the continued growth in
            package volume.

Vehicle Maintenance Costs

The existing management approach to sustaining the delivery fleet is not cost effective.
It typically involves repairing vehicles that break down, resulting in high maintenance
costs, instead of replacing them. This strategy also limits the Postal Service's ability to
upgrade its delivery vehicle fleet with new technologies (see Figure 2).

                       Figure 2. Postal Service Annual Vehicle Operating Cost Trend21
                                           (Excluding Fuel Costs)




                $920
                $900
                $880
                $860
     Millions




                $840
                $820
                $800
                $780
                $760
                           2007       2008         2009             2010            2011            2012
                                             Fiscal Years
 Source: FY 2014 Vehicle Acquisition Plan, IRC Ideation presentation, August 21, 2013.

The Postal Service projected that in FY 2013 about 9 percent of the LLV fleet (nearly
13,000 vehicles) would require maintenance repairs costing more than $6,000 per
vehicle per year, or a total of over $107 million. This represents more than 23 percent of
total projected FY 2013 LLV maintenance costs. As the OIG reported in 2010,22 the fix
as fail strategy is not cost effective for vehicles with high maintenance costs (see
Table 1).

20
   Delivery Operations management provided route projections for FY 2014, so we projected future motorized routes
using historical data.
21
   The annual vehicle operating costs include VMF salaries and benefits, commercial parts and labor, and VMF parts.
The American Recovery and Reinvestment Act of 2010 provided replacement vehicles at no cost to the Postal
Service, contributing to a single year reduction in operating costs.
22
   Delivery Vehicle Replacement Strategy (Report Number DA-AR-10-005, dated June 16, 2010).
                                                            6
Delivery Vehicle Fleet Replacement                                                                       DR-MA-14-005




                       Table 1. Projected FY 2013 LLV Maintenance Costs

                                                                                   Percentage           Percentage of
                    LLV Count             Total Cost23            Average          of Vehicles              Cost
All LLVs                 141,727          $451,881,701                $3,188           100.00%                    100.00%
Greater
than $6,000                12,890         $107,334,855                $8,327               9.09%                   23.75%
Greater
than $7,000                 7,789           $74,428,027               $9,556               5.50%                   16.47%
Greater
than $8,000                 4,893           $52,882,722             $10,808                3.45%                   11.70%
Greater
than $9,000                 3,192           $38,487,351             $12,057                2.25%                     8.52%
Greater
than
$10,000                     2,108           $28,223,556             $13,389                1.49%                     6.25%
Source: FY 2014 Vehicle Acquisition Plan, IRC Ideation presentation, August 21, 2013.

Next Generation of Collection and Delivery Vehicles

The need to replace its collection and delivery vehicles offers the Postal Service an
opportunity to significantly improve the efficiency and technology of the fleet. This
acquisition is also critical to meeting future delivery needs in the growing package
market, reducing petroleum fuel costs and use, and cutting maintenance costs.
Management must consider federal fleet regulatory requirements, emerging vehicle
technologies and trends, and fleet management best practices as it designs its next
generation of collection and delivery vehicles.

Statutory and Regulatory Requirements

Collection and delivery vehicle fleet planning should consider federal regulatory
requirements to:

    Ensure that 75 percent of light-duty fleet vehicle acquisitions are alternative fuel
     vehicles manufactured in the U.S. or Canada.24

    Meet appropriate safety standards administered by the National Highway Traffic
     Safety Administration.

23
   Historical costs were adjusted for inflation and future costs were projected in accordance with historical trends and
Postal Service Finance's recommended escalation rates.
24
   Certain types of emergency, law enforcement, and national defense vehicles are exempt from these requirements.
                                                             7
Delivery Vehicle Fleet Replacement                                                 DR-MA-14-005



In addition, the Postal Service has adopted policies and programs established in several
energy-related executive orders (EO) issued by the White House to federal executive
agencies, including efforts to reduce greenhouse gas (GHG) emissions through reduced
petroleum consumption. See Appendix B for additional information regarding the
statutes and regulations the Postal Service must consider when acquiring next
generation collection and delivery vehicles.

Vehicle Safety

While the Postal Service has generally maintained its LLV fleet in a safe, working
condition, these vehicles do not have the numerous modern vehicle safety features now
considered standard on most vehicles, including:

     Front airbags
     Back-up cameras
     Intermittent wipers
     Blind-spot warning systems
     Daytime running lights
     Seatbelt reminders
     Anti-lock brake systems (ABS)

Many standard safety features were not available when LLVs (which are 75 percent of
the delivery fleet) were originally designed and purchased about 27 years ago (see
Appendix C for additional information regarding standard fleet safety features).

Vehicle Design Options

Capacity, Size, and Shape

It is difficult to define the capacity of future collection and delivery vehicles because it is
a “moving target.” Just as today’s needs differ from those of more than 20 years ago,
when LLVs were designed, needs may change again 10 years from now. Requirements
can vary by location or route; however, the Postal Service should make every effort to
standardize vehicle size, type, and brand because this increases the opportunity for
volume discounts and makes it easier to train maintenance staff and stock parts.

Current LLV capacities specify a payload of 1,000 pounds and cargo storage space of
121 cubic feet. Informal observations and interviews revealed that these capacities are
often underused. Now that the Postal Service is delivering more packages, it might
need capacities at least as large as, or larger than, those of the existing LLVs; however,
Postal Service management indicated the amount of mail a letter carrier can deliver in
his or her 8-hour day limits that maximum capacity. Significant future package volume
increases could shorten the length of existing carrier routes, as additional time would be
needed to deliver each package to a customer’s door. This could limit the maximum
vehicle capacity needed in the future.


                                               8
Delivery Vehicle Fleet Replacement                                                                       DR-MA-14-005



From an operations point of view, more size options may be desirable. Vehicles that
must operate in highly congested cities should be smaller and easier to maneuver than
those that operate in more suburban areas. It would be reasonable for the Postal
Service to offer a small portfolio of vehicle types and sizes to meet varying needs (often
termed a “vehicle selector list”). Both FedEx and UPS use a variety of sizes and types
of vehicles, depending on location, population density, loads, and so forth. Future
FedEx strategies also suggest a “menu” of available vehicle types, depending on the
distance traveled each day and the volume of packages.

The Postal Service can address the shape of the vehicle as two components – cargo
space and driver space. Most medium and large trucks are based on a chassis or cab
that can accept a variety of cargo bodies. The same concept applies to the Postal
Service’s future collection and delivery vehicles; however, if the choice is a small,
commercially produced van, the cab and cargo space are usually integrated. Medium
and large vans often have separate cab or body configurations. The shape of the cargo
space is dictated by the load and cubic feet space requirement. For the Postal Service,
the shape of the cab could depend on driver’s vision and ergonomic factors, rather than
aerodynamics, because the vehicles generally travel at low speeds.25

Driver Side

RHD vehicles continue to be the most practical for collecting and delivering mail. RHD
vehicles are used on curbside delivery routes to allow letter carriers to safely deliver
mail directly to mailboxes without leaving their vehicles. While carriers can perform
some delivery routes without curbside delivery using LHD vehicles, they can use RHD
vehicles for all routes. Today’s “global market” for vehicles makes it easier to acquire
RHD vehicles, but the Postal Service cannot identify any U.S.-manufactured RHD
vehicles that meet its operational requirements. This leaves it with limited options, such
as exploring ways to convince major vehicle manufacturers to build RHD versions of
their U.S.-manufactured light-duty vehicles or working with a qualified vehicle modifier to
convert vehicles from LHD to RHD.

Custom Vehicle Versus Commercial Vehicle

It is no longer practical to design and purchase “custom” vehicles with long lifecycles,
such as the LLV, given the current state of automotive technology and the rapid
changes in powertrain26 development. Each year brings new vehicles with better fuel
economy, reduced maintenance requirements, improved safety and convenience
features, lower emissions, and many other benefits.

Although custom vehicles allow fleet personnel to specify exactly what they need, they
are generally more costly to manufacture than commercially produced vehicles due to
economies of scale. The Postal Service first purchased an LLV in 1987 for $11,651.

25
  Air resistance increases with the cube of the speed; thus, it is not significant at speeds below 50 miles per hour.
26
  A powertrain refers to the group of components (such as the engine and transmission) that generate power and
deliver it to the road surface.
                                                          9
Delivery Vehicle Fleet Replacement                                                                   DR-MA-14-005



Assuming a simple 3 percent per year cost increase due to inflation and advances in
standard features, the same vehicle would cost $25,126 in 2013. A suitable standard
commercial vehicle, even with a small amount of customization and a host of new safety
features, would cost less.27

A commercial vehicle with some customization (in other words, a “mix”) could be the
best option for the Postal Service. This follows fleet management best practices and
aligns with competitors and foreign posts. FedEx, UPS, Canada Post, and Royal Mail
use a variety of van-type vehicles (see Appendix D for examples of competitor and
Foreign Post vehicles). While commercial vehicle options are limited, there are likely
replacements for the LLV if they are delivered as RHD and meet alternative fuel vehicle
requirements. Commercial vehicles could allow the Postal Service to continuously adopt
new technologies and enjoy the cost savings they offer. The Postal Service could also
benefit from better resale values28 by selling used commercial vehicles rather than
custom vehicles.

Powertrains and Green Technologies

Automotive technology is evolving rapidly and manufacturers are offering a greater
variety of powertrains, along with the ability to use several alternative fuels. 29 The
Postal Service has pilot tested many alternative technologies with varying degrees of
success. In establishing the specifications of its next generation of collection and
delivery vehicles, it should consider a variety of powertrains to evaluate how well the
technologies meet current and future delivery operations and regulatory requirements
governing new fleet purchases. Technologies the Postal Service should consider
include:

    Biodiesel
    Electric
    Ethanol or E85
    Hydrogen
    Natural gas
    Propane or liquefied petroleum gas (LPG)

Many companies with large fleets, including UPS and FedEx, are also testing alternative
fuels; however, it is important to note that few companies are moving to use a specific
alternative fuel for their entire fleet. See Appendix E for a description and the
advantages and disadvantages of alternative fuel technologies.



27
   Source: AutoTrader.com for a basic cargo van that would cost $21,000. The Postal Service should be able to
acquire vehicles in large quantities below invoice price.
28
   Resale value is very important in the vehicle acquisition analysis because depreciation is normally the largest
component of overall cost.
29
   Alternative fuels are derived from resources other than petroleum. Some are produced domestically, reducing our
dependence on imported oil, and some are derived from renewable sources. Often they produce less pollution than
gasoline or diesel fuel.
                                                            10
Delivery Vehicle Fleet Replacement                                                               DR-MA-14-005



Innovative Tracking

GPS fleet tracking and telematics devices reduce guesswork and uncertainty in the
management of a geographically dispersed fleet. When fully implemented, a GPS fleet
tracking solution could give the Postal Service greater insight into how its fleet functions,
thus extending the life of its assets and enabling it to respond more quickly to
emergencies or mail carrier rerouting and to take proactive maintenance measures.
More broadly, GPS technologies could help the Postal Service become more effective
and profitable.

The GPS and telematics functionalities listed below show a few areas where the Postal
Service could potentially reduce fleet costs:

    Idle Time Reduction – GPS vehicle tracking technology can uniquely contribute to
     managing fuel consumption. Monitoring idle time and establishing a related policy
     could significantly reduce fuel consumption.

    Improved Maintenance – field breakdowns could be reduced by monitoring
     on-board vehicle diagnostics and bringing vehicles in for repair at the first sign of a
     problem. In addition, these same telematics could optimize preventive maintenance
     intervals.

    Speeding Oversight – the U.S. Environmental Protection Agency estimates that
     excessive speeding may decrease fuel economy by up to 20 percent. Speeding
     oversight could reduce the Postal Service’s fuel consumption.

    Route Optimization – mail collection delivery vehicles typically make multiple stops
     each day and the Postal Service could save time and fuel by more efficiently routing
     its drivers. When the number of stops and locations are subject to frequent change
     or are not scheduled by appointment, it becomes even more important to determine
     the order of the stops and the most efficient route.

The Postal Service may also have opportunities to use GPS technologies to help grow
its package delivery business. Specifically, the Postal Service could use GPS with
scanning technologies to track mail in real time in addition to tracking vehicles.30
Further, the agency could integrate GPS technologies to support its dynamic routing
initiatives.31

Best Practices for Fleet Management

The Postal Service’s current fix as fail strategy may not be the best approach for an
aging fleet of vehicles that are nearing or exceeding their expected service life, as it
would generally be more cost effective to replace older vehicles than to continue to

30
   Global Positioning System: End-to-End Platform and Actionable, Robust Reports Needed to Achieve Goals and
Potential Return-on-Investment (Report Number DR-MA-11-003, dated September 30, 2011).
31
   The OIG plans to conduct a future audit on the Postal Service's use of GPS and geofencing.
                                                          11
Delivery Vehicle Fleet Replacement                                                    DR-MA-14-005



maintain and repair them. Fleet management best practices involve investing
predictable and consistent sums annually to renew the fleet continuously and allow
adoption of new technologies.32 Many fleet managers use the “Total Cost of Ownership”
(TCO) approach to determine the optimum replacement cycle for each type of vehicle.
TCO incorporates acquisition costs, resale value, and maintenance and fuel costs.
Vehicle maintenance costs increase over the life of any vehicle and, if a vehicle is kept
too long, the cost of maintenance outweighs the benefit of keeping the vehicle in service
to delay the expense of a replacement. Figure 3 depicts this principle, with the sum of
these two cost categories representing the U-shaped total lifecycle cost curve. The
optimum time to replace a vehicle is before the TCO increases.

                                            Figure 3. Vehicle TCO




        Source: Mercury Associates, Inc.

The total cost curve differs for every type of vehicle. This variability is due to differences
in design and engineering, the effects of unique operating environments, the quality of
care the vehicle receives, and other factors.

In designing the new delivery vehicles, management must consider federal fleet
regulations, emerging vehicle technologies, and fleet best practices. For example,
growth in the package market could influence the design and technologies selected for
new vehicles. Replacing vehicles could take more than 10 years; thus, it is important
that the Postal Service quickly implement a plan to meet operational needs, achieve
sustainability goals, and reduce maintenance costs.



32
     Delivery Fleet Strategies (Report Number CI-AR-12-006, dated August 14, 2012).
                                                         12
Delivery Vehicle Fleet Replacement                                            DR-MA-14-005



Recommendations

We recommend the vice president, Delivery and Post Office Operations:

1. Continue pursuing short-term annual vehicle acquisitions.

2. Formalize the long-term strategy for replacing the delivery fleet that includes
   developing requirements, specifications, and green technology features for the next
   generation of collection and delivery vehicles.

Management’s Comments

Management agreed with the findings and recommendations.

Regarding recommendation 1, management stated that Delivery Operations continues
to request annual funding to replace vehicles with the highest maintenance costs with
vehicles that will provide the best opportunity for reducing overall total cost of
ownership. Delivery Operations provided a vehicle capital funding plan to Finance that
included both short- and long-term replacement objectives. Management stated they
have already implemented this recommendation.

Regarding recommendation 2, management stated that a cross-functional group
consisting of Supply Management, Engineering, and Delivery Program Support has
begun the process of formalizing a fleet replacement strategy. Management stated they
will develop a fleet replacement strategy by January 2015.

See Appendix F for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
management’s corrective actions should resolve the issues identified in the report.

Regarding recommendation 1, Delivery Operations management submitted a 5-year
vehicle capital funding plan that included short- and long-term replacement objectives in
April 2014. We assessed the plan and, if funded, the requested vehicle acquisitions
should help the Postal Service sustain delivery operations and reduce maintenance
costs until it acquires the next generation of collection and delivery vehicles.

Regarding recommendation 2, the OIG requests written confirmation when corrective
actions are completed. This recommendation should not be closed in the Postal
Service’s follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.

The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Management’s actions sufficiently addressed

                                            13
Delivery Vehicle Fleet Replacement                                       DR-MA-14-005



recommendation 1; therefore the OIG considers this recommendation closed with the
issuance of this report.




                                         14
Delivery Vehicle Fleet Replacement                                                   DR-MA-14-005




                                  Appendix A: Additional Information

Background

The Postal Service operates one of the largest vehicle fleets in the U.S. As of May
2013, the Postal Service owned almost 212,000 vehicles, using over 190,000 of them to
collect and deliver mail. This delivery fleet consists of about 20,000 minivans, 7,000
cargo vans, 21,000 flex fuel vehicles, and 142,000 LLVs.33 The expected service life of
an LLV is 24 years and the current fleet consists of LLVs that are now between 20 and
27 years old. As the Postal Service fleet ages projected maintenance costs will
increase. Older models will, by necessity, continue to be retired due to the high cost to
repair them or the unavailability of replacement parts.

The responsibility of operating, sustaining, and renewing the Postal Service's delivery
fleet is a cooperative venture among Delivery and Post Office Operations, Engineering,
Sustainability, and Supply Management. Their specific responsibilities are as follows:

       Delivery and Post Office Operations develops, implements, and communicates
        long-range strategic plans and manages national delivery and collection operations
        policies and procedures.

       Engineering provides leadership in the research and development of all postal
        vehicles, including alternative fuel vehicles.

       Sustainability works to reduce vehicle petroleum fuel use and increase alternative
        vehicle fuel use.

       Supply Management supports customer requirements for the development and
        acquisition of delivery vehicles, with services ranging from the initial research and
        development contracts to full-scale repair and maintenance service contracts.

Objectives, Scope, and Methodology

Our objectives were to assess the Postal Service’s acquisition strategy for the next
generation of collection and delivery vehicles and identify features for these vehicles. To
accomplish our objectives, we:

       Identified and reviewed applicable documentation related to Postal Service
        strategies that could impact delivery operations.

       Interviewed Postal Service officials to identify any limitations the existing collection
        and delivery vehicles may have in implementing this strategy and the effect the
        strategy may have on the design of future collection and delivery vehicles.


33
     EDW Vehicle Asset Attribute Report as of May 31, 2013.
                                                         15
Delivery Vehicle Fleet Replacement                                                DR-MA-14-005



    Collected and analyzed data on the FY 2009-2013 collection and delivery fleet,
     using data from the EDW and AMS, including number and type of vehicles and the
     number of motorized delivery routes. This data and projected fleet complement
     requirements enable us to determine the Postal Service’s ability to continue
     meeting operational needs.

    Reviewed financial challenges, federal fleet alternative fuel vehicle requirements,
     federal principles for capital planning, and documentation on the Postal Service’s
     environmental sustainability goals to identify risk factors for acquisition of the next
     generation of collection and delivery vehicles.

    Performed a limited review, with the assistance of a fleet management expert, of
     fleet management best practices for evaluating and defining vehicle requirements,
     viable vehicle options, and technologies that would be available to the Postal
     Service in designing the next generation of collection and delivery vehicles and
     federal regulatory requirements.

We conducted this review from March 2013 through June 2014, in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on May 5, 2014, and included their comments where appropriate.

We assessed the reliability of EDW and AMS data by performing electronic testing of
required data elements, reviewing existing information about the data and the system
that produced them, interviewing agency officials knowledgeable about the data, and
comparing results to published reports. We determined that the data were sufficiently
reliable for the purposes of this report.




                                              16
Delivery Vehicle Fleet Replacement                                                      DR-MA-14-005



Prior Audit Coverage


        Report Title                 Report Number       Final Report Date       Monetary Impact

 Delivery Fleet Strategies           CI-AR-12-006           8/14/2012                   None

Report Results:
The Postal Service does not have a comprehensive fleet management strategy but has some
elements of a strategy in place to operate, sustain, and renew its delivery fleet. In June 2011,
management developed a plan to purchase new vehicles; however, the Postal Service’s
continuing financial situation prevented the plan’s implementation. We recommended that
management develop and implement a comprehensive fleet management strategy that is
managed from headquarters by a dedicated team of specialists whose primary focus is to use
identified best practices for the management of the Postal Service’s vehicle fleet. Management
disagreed with our first finding and recommendation stating the Postal Service’s fleet strategy is
not contained in one department, but is a cooperative venture among various departments. We
also recommended that management establish an annual new vehicle replacement strategy, as
part of a comprehensive fleet management strategy, to replace part of the fleet each year, spread
out the expenditures over time, and ensure the overall operational functionality of the fleet.
Management agreed to incorporate the concept of yearly replacement of portions of the fleet
rather than a massive purchase prior to the next significant vehicle acquisition.


Global Positioning System:           DR-MA-11-003           9/30/2011                   None
End-to-End Platform and
Actionable, Robust
Reports Needed to
Achieve Goals and
Potential Return-on-
Investment
Report Results:
Opportunities exist to enhance the use of GPS at the Postal Service. GPS technology has been
implemented on only 3 percent of delivery vehicles and not on trucks that transport mail. For
delivery operations, management uses standard GPS reports from the vendor (rather than
customized reports) and districts do not consistently use exception data from the reports to
manage operations. Existing GPS for delivery vehicles has helped in street management,
anecdotally curtailed negative behavior, and provided a basis for return-on-investment. However,
the Postal Service could develop an end-to-end, single-sourced GPS platform and back office
accountability for the entire fleet of vehicles and trucks focused on taking costs out of the delivery
and transportation system. We recommended management maximize existing GPS functions
and create internal best practices for the existing GPS and explore an end-to-end GPS platform
and establish a cross-functional team of Postal Service managers to review existing barcode and
scanning systems, as well as other related tracking and scanning opportunities. Management
generally agreed with the findings and recommendations.




                                                    17
Delivery Vehicle Fleet Replacement                                                      DR-MA-14-005




        Report Title                 Report Number      Final Report Date        Monetary Impact

U.S. Postal Service:                  GAO-11-386            5/5/2011                   None
Strategy Needed to
Address Aging Delivery
Fleet
Report Results:
The GAO profiled the Postal Service’s delivery fleet, assessed its response to alternative fuel
vehicle requirements, and described its experiences with these vehicles. In addition, the GAO
identified the Postal Service’s approach to addressing its delivery fleet needs, including trade-
offs, and determined options to fund a major acquisition of delivery vehicles. As a result of this
analysis, the GAO recommended the Postal Service develop a strategy for addressing its
delivery fleet needs that considers the effects of likely operational changes, legislative fleet
requirements, and other factors and management agreed. Postal Service management also
stated given the current financial conditions, the availability of capital funds would be a primary
factor in any investment decision.




                                                   18
       Delivery Vehicle Fleet Replacement                                                                DR-MA-14-005



                      Appendix B: Alternative Fuel Vehicle Laws and Regulations

       Summary of Federal Fleet Requirements

       Federal fleets must reduce GHG emissions while meeting mission critical needs and
       complying with all federal goals and mandates. Federal fleets, including the Postal
       Service fleet, will reduce GHG emissions through less petroleum consumption by
       reducing miles driven, increasing fuel efficiency, and using alternative fuels. The White
       House and Congress have established federal fleet regulatory requirements through the
       EOs34 and statutes in Table 2.

       Table 2. Principle Federal Fleet Energy Management and Efficiency Requirements

Key Federal Fleet           GHG Reduction                  Petroleum Consumption                   Alternative Fuel Use
Statutes and EOs                                                  Reduction

EO 13514 -       Federal agencies shall                  Reduce the fleet’s total
Federal          make reduction of GHG                   consumption of petroleum
Leadership in    emissions a priority and                products by 2 percent
Environmental,   establish a target for                  annually through the end of
Energy, and      reducing fleet GHG                      FY 2020, based on an
Economic         emissions by FY 2020,                   FY 2005 baseline for a
Performance      relative to an FY 2008                  30 percent total reduction by
                 baseline.                               FY 2020.
Energy           Prohibits federal agencies              Not later than October 1,             Not later than October 1,
Independence and from acquiring light-duty               2015, each federal agency             2015, each federal agency
Security Act of  vehicles that are not low               shall achieve at least a              shall achieve a 10 percent
2007             GHG emitting vehicles.                  20 percent reduction in               increase in annual
                                                         annual petroleum                      alternative fuel
                                                         consumption as calculated             consumption as calculated
                                                         from an FY 2005 baseline.             from an FY 2005 baseline.




       34
         EOs 13514 and 13423 do not apply to the Postal Service; however, it has adopted many of the policies and
       programs under postal authority and considers them when developing its compliance strategy.
                                                            19
           Delivery Vehicle Fleet Replacement                                                   DR-MA-14-005




  Key Federal Fleet              GHG Reduction             Petroleum Consumption          Alternative Fuel Use
  Statutes and EOs                                                Reduction
  EO 13423 -                                              Reduce the fleet’s total      Increase total fuel
  Strengthening                                           consumption of petroleum      consumption that is non-
  Federal                                                 products by 2 percent         petroleum based by
  Environmental,                                          annually through the end of   10 percent annually
  Energy, and                                             FY 2015, based on a           through the end of
  Transportation                                          FY 2005 baseline.             FY 2015, based on an
  Management                                                                            FY 2005 baseline. In
                                                                                        addition, use plug-in hybrid
                                                                                        electric vehicles (HEV)
                                                                                        when they are
                                                                                        commercially available at a
                                                                                        reasonable lifecycle cost
                                                                                        compared to non-plug-in
                                                                                        HEV.
  Energy Policy Act                                                                     Federal dual-fueled
  (EPAct) of 2005                                                                       alternative fuel vehicles
                                                                                        shall use alternative fuels
                                                                                        unless the Secretary of
                                                                                        Energy determines the
                                                                                        agency qualifies for a
                                                                                        waiver.
  EPAct of 1992                                                                         Of the total number of
                                                                                        light-duty vehicles acquired
                                                                                        by a federal fleet, at least
                                                                                        75 percent in FY 1999 and
                                                                                        thereafter, shall be
                                                                                        alternative fuel vehicles.
Source: Department of Energy, Federalfleets.energy.gov.




                                                              20
    Delivery Vehicle Fleet Replacement                                                                    DR-MA-14-005




                               Appendix C: Standard Fleet Safety Features

    LLVs represent 75 percent of the Postal Service delivery fleet. These vehicles were
    purchased as long as 27 years ago and, as a result, do not include numerous modern
    vehicle safety features developed to reduce accidents and injuries that are now
    considered standard on most vehicles. Below are 31 standard safety features
    commonly found in fleet vehicles.

                                  Table 3. Standard Fleet Safety Features

                                                                                     Average Cost Per Vehicle to
                        Standard Fleet Safety Features                                     Add This Feature35
1        Frontal airbags (driver and passenger)                                      Standard on all vehicles
2        Back-up cameras                                                             Will be standard as of 2016
3        Intermittent wipers                                                         Standard on all vehicles
4        Blind spot warning systems                                                  $250 after market
5        Daytime running lights                                                      Standard on all vehicles
6        Seat belt reminder                                                          Standard on all vehicles
7        ABS brakes                                                                  Standard on all vehicles
8        Safety belt pretensioners                                                   Standard on all vehicles
9        Electronically adjusting external mirrors                                   Standard on most vehicles
10       Crash recorder or event data recorder                                       Standard on most vehicles
11       Tire pressure monitoring                                                    Standard on all vehicles
12       Air conditioning/climate control                                            Standard on all vehicles
         Emergency equipment (first-aid kit, emergency signaling
13                                                                                   $50
         device, fire extinguisher)
         GPS tracking device, as well as a system that transmits                     Many aftermarket devices that
14       engine data to a central location for monitoring and tracking,              start at around $100+ based on
         plus real-time package tracking                                             sophistication and functionality
15       Cargo barrier                                                               Will be standard




    35
       For safety features not standard on vehicles or required by law, we estimated the average cost per vehicle to add
    this feature.
                                                              21
   Delivery Vehicle Fleet Replacement                                                                    DR-MA-14-005




                                                                                     Average Cost Per Vehicle to
                       Standard Fleet Safety Features                                     Add This Feature36
                                                                                    Now standard on some
 16     Side airbags                                                                vehicles; $1,500-$2,000 new
                                                                                    from dealer
                                                                                    Pricing is unknown, but cost is
 17     Collision avoidance systems
                                                                                    a function of sophistication
                                                                                    Numerous aftermarket
 18     Back-up sensors
                                                                                    suppliers; under $100
 19     Dash cameras facing forward and toward the driver                           Pricing is unknown
 20     Conspicuous body color                                                      $100

 21     Flashing light on rear indicating vehicle makes frequent stops              $100
                                                                                    $15 aftermarket, $250 new
 22     Turn indicators on side mirrors
                                                                                    from dealer
 23     Rear parking assistance device                                              $35-$200 aftermarket
                                                                                    Aftermarket products exist but
 24     Fatigue warning systems
                                                                                    pricing is unknown
                                                                                    Pricing unknown, but can vary
                                                                                    from one-time purchase price
 25     Device preventing phoning or texting while driving
                                                                                    to monthly monitoring license
                                                                                    fees
        Automatic 911 call in the event of an accident (OnStar or
 26                                                                                 $20 monthly fee
        similar)
 27     Night vision enhancements                                                   $2,100-$5,500 aftermarket
 28     Lane departure indicators                                                   $1,000 aftermarket
 29     Cornering (adaptive) headlights                                             $500-$600 new from dealer
 30     Real-time traffic information                                               Pricing unknown
                                                                                    Functionality is in place, it just
 31     Top-speed limiter
                                                                                    needs to be enabled
Source: Mercury Associates, Inc.




   36
      For safety features not standard on vehicles or required by law, we estimated the average cost per vehicle to add
   this feature.
                                                              22
Delivery Vehicle Fleet Replacement                                               DR-MA-14-005




          Appendix D: Examples of Competitors and Foreign Post Vehicles

Postal Service competitors and foreign posts have acquired a variety of van-type
commercial vehicles, with some customization to meet their collection and delivery
vehicle needs. Figure 4 indicates that FedEx plans to use four types of vehicles to cover
the majority of collection and delivery routes. We note that FedEx plans to eventually
migrate from its existing W700 step van to a combination of hybrid and electric vehicles.
It is not clear when this transition will occur, but we suspect it will be a gradual phase-in
over many years.

                                      Figure 4. FedEx Vehicles




        Source: Green Fleet magazine, July 9, 2013.

Worldwide, UPS has over 96,000 package cars, vans, tractors, and motorcycles,
including more than 2,700 alternative fuel and advanced technology vehicles. These
include all electric, hybrid electric, hydraulic hybrid, compressed natural gas (CNG),
liquefied natural gas (LNG), LPG, biomethane, and lightweight fuel-saving composite
body vehicles. UPS has developed and continues to expand its fleet using a "rolling
laboratory" approach – using its alternative fuel fleet as a way to learn how new
technologies and advancements can be adapted for use in a large delivery network.
See Figure 5 for examples of vehicles UPS is testing.




                                                      23
Delivery Vehicle Fleet Replacement                                         DR-MA-14-005



                             Figure 5. UPS Alternative Fuel Vehicles




Source: UPS.com.



Royal Mail and Canada Post also use a wide variety of vans and trucks (and bicycles).
See Figures 6 and 7.

                                  Figure 6. Royal Mail Fleet Vehicles




 Source: Postalheritage.org.uk.




                                                  24
Delivery Vehicle Fleet Replacement                                  DR-MA-14-005



                             Figure 7. Canada Post Fleet Vehicles




Source: CanadaPost.ca.




                                              25
            Delivery Vehicle Fleet Replacement                                                                      DR-MA-14-005



                                                               Appendix E: Alternative Fuel Technologies

            Table 4 identifies six alternative fuels the Postal Service should consider for possible implementation in its fleet and some
            of the advantages and disadvantages of each fuel type.

                                                                      Table 4. Alternative Fuel Analysis

Alternative Fuel                Advantages                                                               Disadvantages
Biodiesel or B5, B20, or            Domestically produced from non-petroleum, renewable
                                                                                                             Use of blends above B5 not yet approved by many auto makers.
B100 - Biodiesel is a                resources.
renewable fuel that can be                                                                                   Lower fuel economy and power (10 percent lower for B100, 2 percent for
manufactured from                   Can be used in most diesel engines, especially newer ones.
                                                                                                              B20).
vegetable oils, animal fats,        Lower air pollutants and GHG emissions.                                 Currently more expensive than gasoline.
or recycled cooking grease
for use in diesel vehicles.         Safe to handle, biodegradable, and non-toxic.                           B100 generally not suitable for use in low temperatures due to gelling (14F).

                                Opinion: Biodiesel has good potential where supplies are easily accessible. Existing diesel storage tanks can easily be converted to biodiesel, but we
                                suspect few Postal Service locations currently stock diesel. The primary drawback is the added cost for a diesel engine vehicle compared with a gasoline
                                engine.
Electricity - Electricity can
                                    Better fuel economy and lower fuel costs (HEV, PHEV).                   Purchase prices are higher than their straight gasoline counterparts. (All)
be used to power all-electric
vehicles (EV) and plug-in           Lower air pollutants and GHG emissions (HEV).                           Battery replacement costs. (All)
hybrid electric vehicles
(PHEV), as well as, boost           Zero tailpipe air pollutants and GHG emissions when in all              Large up-front cost to build fueling infrastructure. (PHEV, EV)
fuel efficiency on HEV.              electric mode (PHEV, EV).                                               Service and repair technicians require special training. (All)
These vehicles can draw
electricity directly from the                                                                                Shop facilities require special equipment to diagnose and repair problems.
grid and other off-board                                                                                      (All)
electrical power sources and
store it in batteries.          Opinion: HEVs have very good potential for Postal Service use because they offer a solution that is easily adopted and cost effective given the Postal
                                Service delivery fleet mode of operation. They can operate solely on gasoline (or diesel), which makes them easy for operators to embrace. Additional
                                fueling infrastructure is not needed. Vehicle availability remains a barrier for Postal Service needs. The Postal Service is an ideal candidate for PHEV after
                                they become available because of pre-determined routes, known route length, and vehicles returning to the same parking area at the end of the business
                                day. They also have good potential for future needs when investment can be made in charging infrastructure; in the meantime, they are still able to
                                operate on petroleum fuels. Vehicle availability is limited. EVs are not considered practical at this time, but could very likely be a leading vehicle
                                technology in 10 to 15 years.




                                                                                            26
            Delivery Vehicle Fleet Replacement                                                                      DR-MA-14-005




Alternative Fuel                 Advantages                                                              Disadvantages
Ethanol or E-85 - Ethanol is         Domestically produced, reducing use of imported petroleum.             Can only be used in flex-fuel vehicles.
a widely used renewable fuel
                                     Lower emissions of air pollutants.                                     Lower energy content, resulting in fewer miles per gallon.
made from corn and other
plant materials. It is blended       Added vehicle cost is relatively small, as little as $70.              Comparatively limited availability.
with gasoline for use in
vehicles.                        Opinion: E-85 has good potential where supplies are easily accessible. The addition of an E-85 on-site fueling facility will add cost. Performance is good,
                                 but future economic viability is uncertain due to the potential loss of federal subsidies to produce this fuel.
Hydrogen - Hydrogen is a             Domestically produced, reducing use of imported petroleum.             Hydrogen is expensive to produce and only available in a handful of locations.
potentially emissions-free
alternative fuel that can be         No air pollutants or GHG emissions when used in fuel cells.            Vehicles are expensive and not yet available for sale to the general public.
produced from domestic                                                                                       Fewer miles on a tank of fuel.
resources for use in fuel cell
vehicles.                                                                                                    Service and repair technicians require special training.
                                                                                                             Shop facilities require special equipment to detect/remove gas leakage.
                                 Opinion: Hydrogen is not recommended due to the many barriers to overcome for production, distribution, storage, handling, and vehicle technology. It
                                 may take 20 years or more before it is ready for Postal Service vehicles.
Natural Gas - Natural gas is         Less expensive than gasoline.                                          The cost to purchase/convert vehicles to CNG is high.
a domestically abundant
gaseous fuel that can have           Lower air pollutants and GHG emissions                                 CNG tanks require storage space, reducing passenger and/or cargo space.
significant fuel cost
                                     Natural gas remains abundant in the U.S.                               LNG and CNG filling infrastructure is limited.
advantages over gasoline
and diesel fuel. It can be                                                                                   Large up-front cost to build fueling infrastructure.
used in vehicles as either
CNG or LNG.                                                                                                  Fewer miles on a tank of fuel.
                                                                                                             Service and repair technicians require special training.
                                                                                                             Shop facilities require special equipment to detect and/or remove gas
                                                                                                              leakage.
                                 Opinion: LNG and CNG are not good options for light duty vehicles due to conversion costs and fuel acquisition, storage, and distribution issues.
Propane - Propane, also              90 percent of propane used in the U.S. comes from domestic
                                                                                                             Limited vehicle availability.
known as LPG, is a readily            sources.
available gaseous fuel that          Remains less expensive than gasoline.                                  Less readily available than gasoline and diesel.
has been widely used in              Potentially lower air pollutants and GHG emissions.                    Fewer miles on a tank of fuel.
vehicles throughout the
world for decades.                                                                                           Service and repair technicians require special training.
                                                                                                         Shop facilities require special equipment to detect/remove gas leakage.
                               Opinion: LPG has potential for Postal Service vehicles but suffers the same availability and fuel infrastructure cost barriers as E-85 and other alternatives.
Source: Mercury Associates, Inc.


                                                                                                  27
Delivery Vehicle Fleet Replacement                             DR-MA-14-005



                           Appendix F: Management's Comments




                                          28
Delivery Vehicle Fleet Replacement        DR-MA-14-005




                                     29
